U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 10, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Brendon Janis v. United States, No. 21-68

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 15, 2021.
The government’s response is now due, after one extension, on September 17, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 18, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0068
JANIS, BRENDON
USA

STEPHEN D. DEMIK
1617 SHERIDAN LAKE ROAD
RAPID CITY, SD 57701
605-341-4400
ADAM G. UNIKOWSKY
JENNER & BLOCK LLP
1099 NEW YORK AVE., N.W.
SUITE 900
WASHINGTON, DC 20001
202-639-6000
AUNIKOWSKY@JENNER.COM

